No. 20-350

In the Supreme Court of the United States
DANIEL FLORES, Petitioner,
v.
CHRISTIAN PFEIFFER, WARDEN, Respondent.

CERTIFICATE OF SERVICE BY MAIL

I, Viet H. Nguyen, Deputy Attorney General, a member of the Bar of this Court
hereby certify that on December 11, 2020, one copy of the BRIEF IN OPPOSITION in
the above-entitled case was mailed, first class postage prepaid to:
Orly Ahrony
Attorney at Law
Ahrony, Graham, and Zucker, LLP
401 Wilshire Blvd., 12th Floor Penthouse
Santa Monica, CA 90401
Orly@ahronygraham.com
(310) 979-6400

I further certify that all parties required to be served have been served.

VIET H. NGUYEN, Deputy Attorney General
Office of the Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
Telephone: (213) 269-6125
Counsel for Respondent
LA2020602999
63814572.docx

